<html>
<title> - MODERNIZING DEVELOPMENT FINANCE</title>
<body><pre>[Senate Hearing 115-829]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-829
                                                        
                     MODERNIZING DEVELOPMENT FINANCE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 10, 2018

                               __________

       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-668 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                      
                   COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        


                           C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     2

Washburne, Hon. Ray, President and CEO, Overseas Private 
  Investment Corporation, Washington, DC.........................     4
    Prepared Statement...........................................     6

Runde, Daniel, William A. Schreyer Chair and Director, Project on 
  Prosperity and Development, Center for Strategic and 
  International Studies, Washington, DC..........................    20
    Prepared Statement...........................................    22

Ingram, George, Senior Fellow, Global Economy and Development, 
  Brookings Institution, Washington, DC..........................    24
    Prepared Statement...........................................    25

              Additional Material Submitted for the Record

Statements by Habitat for Humanity and Holtec Submitted by 
  Senator Menendez...............................................    37

Letter From the Hon. Elizabeth L. Littlefield to the Senate 
  Foreign Relations Committee Submitted by Senator Coons.........    44

S. 2463 BUILD ACT................................................    45

                                 (iii)
 

 
                 MODERNIZING DEVELOPMENT FINANCE

                              ----------                              


                       THURSDAY, MAY 10, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Gardner, Young, 
Menendez, Cardin, Coons, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Foreign Relations Committee will come to 
order.
    You seem awfully jovial on this side of the aisle----
    Senator Menendez. We are.
    The Chairman. --tonight. I do not--today--I do not know 
what that is about, but I am glad to see it.
    I thank our witnesses for being here today as we consider 
how the U.S. can modernize our development finance efforts. Our 
foreign assistance program should set the goal of putting 
themselves out of business. We should promote economic growth 
and job creation that will enable developing countries to stand 
on their own and provide their citizens with opportunity, and 
lead them out of poverty.
    At no net cost to taxpayers, Development Finance 
Institutions can play an important role in facilitating lending 
to help local businesses in the developing world grow and 
attract foreign investors. But, our current agencies are not 
equipped for the 21st-century challenges and opportunities.
    The Overseas Private Investment Corporation, OPIC, as we 
call it, used--uses public-sector tools, such as loans, 
guarantees, and insurance to provide private-sector investment 
flows in the developing world--into the developing world, where 
access to capital and market rates may not be accessible. 
However, as OPIC approaches 50, the corporation lacks the 
modern tools to fully engage the private sector in developing 
countries.
    To address those deficiencies, we have introduced the 
Better Utilization of Investments Leading to Development, or 
BUILD, Act. Our bipartisan legislation will reform and 
consolidate financing activities of OPIC and USAID. The 
administration and key stakeholders, including the ONE 
Campaign, the U.S. Global Leadership Coalition, and the U.S. 
Chamber of Commerce, have strongly embraced the goals and 
concept of our legislation in a companion bill introduced in 
the House.
    In a statement of support released last month, the White 
House said the BUILD Act is broadly consistent with President 
Trump's commitment to the Asia-Pacific Economic Cooperation 
Forum last November that the U.S. is committed to reforming its 
Development Finance Institutions to better incentivize private-
sector investment in developing countries as a clear 
alternative to state-led financing initiatives that undermine 
state sovereignty. The White House also warned that our 
development finance tools are outdated, fragmented, and often 
not well-coordinated, hampering our ability to achieve key U.S. 
foreign policy and national security objectives while 
contributing to an inefficient use of taxpayer dollars. They 
also agree that reform will help the U.S. compete more 
effectively in a new era of strategic competition.
    Establishing a new Development Finance Corporation provides 
the private-sector alternative to China's aggressive and 
potentially damaging lending through the Belt and Road 
Initiative and other finance efforts. China seeks to promote a 
state-led, centrally-planned development model that benefits 
China, first and foremost. While China's lending practices are 
opaque, estimates of Chinese current and planned lending often 
to countries with high debt-to-GDP ratios ranges from 100 
billion to into the trillions. The new U.S. International 
Development Finance Corporation created by our bill instead 
would advance responsible lending so citizens in recipient 
countries will be full participants in economic growth. With a 
modern Development Finance Corporation, we could increase the 
effectiveness and reach of U.S. aid and strength market--
strengthen market economies abroad. We could better promote 
private-sector economic growth that creates middle-class 
consumers and industries. Not only would this growth help 
reduce our foreign-aid budgets over time, it can lead to 
consumers abroad who can buy U.S. exports. Both the public-
sector and private-sector interests can benefit from the growth 
of market economies in developing nations. It is in our 
national interest to encourage the opportunities that can 
result from this common interest in economic growth in the 
developing world.
    We thank our witness for being here. We thank him for his 
service to our Nation.
    And, with that, turn to my friend, our distinguished 
Ranking Member, Bob Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, for calling this 
hearing.
    It is critical that this committee maintains oversight over 
U.S. development efforts to ensure that they are effectively 
promoting our interests abroad. And I have long supported 
expanding our vision of development to ensure the United States 
can best pursue broader economic statecraft rooted in sound 
principles of development, diplomacy, and leveraging the 
private sector. As a matter of fact, when I was chairman of the 
committee, we authored a white paper on this topic, so it is an 
issue of some importance.
    Centuries of history have proved that using American 
resources to help other countries lift their citizens out of 
poverty, respond to disasters, and support private-sector 
growth directly contributes to prosperity and stability 
throughout the world. As we consider modernizing development 
financing, we must ensure that development, along with defense 
and diplomacy, remains a pillar of our foreign diplomacy. 
Specifically, the U.S. Agency for International Development 
must continue to lead our development efforts in advance of 
national interests. I am disappointed that USAID does not have 
a witness here today. USAID's perspective is essential as we 
move forward. And I will certainly be looking forward to having 
conversations with Administrator Green before I am personally 
ready to move forward.
    Around the world, nations, from the United Kingdom to 
China, use various state-sponsored development financing 
mechanisms to help their domestic industries invest in 
developing economies, which, in turn, contribute to economic 
growth and job creation in the partner countries. The United 
States has a different history and model of private business 
versus state-owned enterprises. The Overseas Private Investment 
Corporation has an integral role in assisting U.S. to do the 
business of development in emerging markets. USAID supports 
private-sector partnerships through the Development Credit 
Authority, the Global Development Lab, and the Private Capital 
Group. These efforts leverage critical, sustainable 
partnerships to transition communities towards self-reliance, 
Administrator Green's central mission. We must take steps to 
ensure that our government agencies are in the best position to 
facilitate private-sector engagement abroad, to foster 
entrepreneurialism and job growth, infrastructure, and raising 
worker standard, which ultimately contributes to wider 
prosperity and, potentially, new markets for U.S. goods and 
services.
    However, I remain concerned about the administration's 
overall approach to development. The administration's first 
budget shuttered OPIC. This year, it calls for an enhanced 
Development Finance Institution with more resources and 
authorities, and I still do not know what the administration 
wants to do with the Trade and Development Agency.
    So, I come to this hearing with real concerns about the 
bigger picture of the administration's foreign policy vision 
and how a new development finance entity will fit in. The BUILD 
Act elevates and enhances OPIC's current authorities by 
consolidating financing entities, including USAID's Development 
Credit Authority. However, I have several concerns. First, we 
must ensure that the new Development Finance Corporation's 
mission has development at its core and does not just function 
as a bank. Two, a new Development Finance Corporation must have 
a board that reflects the dynamism and innovation occurring in 
sectors ranging from finance and international development to 
human labor and environmental rights. Thirdly, development 
initiatives must serve our policy objectives while maintaining 
high levels of accountability to the communities they serve and 
to the American taxpayer.
    In closing, I would like to offer two examples of how 
development financing can contribute to job growth and U.S. 
national security. OPIC has partnered with Habitat for Humanity 
and MicroBuild to help build homes for 120,000 families in 19 
countries, from Azerbaijan to Zambia. With a roof over their 
head, individuals and families are far more likely to go to 
school, to find a job, and to ultimately support their 
communities. In another example, Holtec, based in Camden, New 
Jersey, has partnered with OPIC to construct a long-term fuel 
storage facility in the Chernobyl exclusive--Exclusion Zone of 
Ukraine. This project, by breaking a Russian monopoly on 
nuclear waste disposal, advances U.S. national security 
priorities and is expected to generate more than $200 million 
in procurements of American goods and services.
    Mr. Chairman, I ask consent that the statements by Habitat 
for Humanity and Holtec be added to the record at this point.
    The Chairman. Without objection.
    [The information referred to above can be found at the end 
of this document.]
    Senator Menendez. Because of stories like these, I have 
long advocated for multiple tools to pursue a comprehensive 
policy of economic statecraft.
    So, as we move forward, I will look forward to working with 
you, the administration, and critical voices from civil society 
and international development organizations to diligently 
ensure that we maintain the integrity of development operations 
while building new development finance tools and explore new 
investment options.
    Look forward to the testimony and the questions. And thank 
you, again, Mr. Chairman, for an important hearing.
    The Chairman. Thank you.
    Our first witness is Mr. Ray Washburne, President and CEO 
of OPIC, our Nation's Development Finance Institution. He is a 
real estate investor, restaurant developer. Mr. Washburne has 
served on the board of--and loan committees of several banks, 
infrastructure, construction, and manufacturing businesses. 
Well-equipped to lead this great organization.
    We thank you for being here and, again, for your service. 
If you would keep your comments to about 5 minutes, that would 
be great. And any written documents you have, we will be glad 
to enter into the record. If you would begin.
    Thank you.

 STATEMENT OF HON. RAY WASHBURNE, PRESIDENT AND CEO, OVERSEAS 
         PRIVATE INVESTMENT CORPORATION, WASHINGTON, DC

    Mr. Washburne. Chairman Corker, Ranking Member Menendez, 
members of the committee, thank you for inviting me to testify 
today on this critical topic.
    Chairman Corker, I would like to acknowledge all the work 
you have done to advance U.S. foreign policy. From Electrify 
Africa to efforts to combat human trafficking, you have been a 
champion for those in need around the globe.
    Ranking Member Menendez, your leadership has been 
instrumental in strengthening U.S. engagement in the world, 
particularly in the western hemisphere.
    Indeed, this committee's bipartisan work has helped set the 
stage for the administration's proposal for the United States 
to establish a reformed, more effective Development Finance 
Institution with modernized tools and a focus on supporting 
private-sector-driven development. When it comes to meeting the 
massive development needs around the globe and advancing 
American foreign policy, this proposal and the legislation the 
committee is weighing is essential.
    As you know, development finance uses tools such as loans, 
guarantees, and political risk insurance to facilitate private-
sector investment in emerging markets that will have positive 
developmental impact. These are transactions the private sector 
will not do on their own. Through OPIC, the U.S. Government has 
used these tools to back projects in key sectors, such as 
power, water, and health, that improve life for millions and 
lay the groundwork for economic growth. Likewise, the U.S. 
Government has used USAID's Development Credit Authority to 
drive private investment into countries that have not had 
access to commercial finance. This model for modernizing 
private investment is only becoming more prominent as the needs 
in the developing world are just too great to meet with 
government resources alone. Yet, U.S. capabilities have become 
outdated as we have gone without significant legislative 
updates. As a result, we lacked the modern 21st-century 
mechanisms needed to either compete with countries like China 
or cooperate with allies like Britain, Germany, and Japan, 
which are investing heavily in emerging markets.
    And the global competition for influence is on. While I was 
in Asia, I saw how China's Belt and Road Initiative is changing 
the political and economic landscape. The amount of investment 
China has planned for this initiative is staggering, aimed at 
interconnecting 65 percent of the world's population, one-third 
of the world's GDP, and a quarter of all goods and services. Of 
course, a condition of many of these loans is that Chinese 
firms and labor get the business. And we know what happens when 
countries cannot pay.
    In December, for example, Sri Lanka gave control of a 
strategic port to Beijing for 99 years. This comes as China has 
been stepping up its presence in the Indian Ocean and its 
critical shipping lanes. Mr. Chairman, we have to be engaged in 
the developing world with a robust alternative to these state-
directed investments which can leave developing countries worse 
off. And we have that alternative in a new U.S. Development 
Finance Institution, or DFI. This proposal is a result of the 
President's executive order on reorganizing government, which 
promoted a fresh interagency look over several months. We found 
that the U.S. Government's ability to deploy these tools 
strategically is limited by outdated legal authorities and 
fragmentation.
    With this in mind, the administration developed a proposal 
to improve efficiencies, reform programming, and, as envisioned 
by the National Security Strategy, elevate these tools to 
advance U.S. foreign policy goals. The President's budget 
proposes to consolidate multiple U.S. development finance 
functions into a new standalone Development Finance 
Institution. The DFI will have better policy alignment and 
strong links to the State Department and USAID to ensure its 
transactions align with U.S. foreign policy and leverage 
USAID's programming. This includes funding for technical 
assistance in grants for potential DFI projects that need a 
bridge to becoming investment-ready. We also need governance 
and management structures to ensure the DFI and USAID's field 
missions work seamlessly.
    The new DFI will include reforms to better manage taxpayer 
risk and ensure its investments are additional to the private 
sector. We do not support projects that could, or should, 
proceed on their own. And we will also ensure that our work 
upholds the highest environmental, social, and worker-rights 
standards. Another part of a reformed DFI is increased 
transparency and accountability through expanded inspection and 
oversight.
    In conclusion, Mr. Chairman, in 9 months as the head of 
OPIC, I have seen the power of the private sector unleashed to 
advance U.S. policy. OPIC approved the transaction which will 
increase Ukraine's energy independence from Russia. OPIC 
formally launched its 2X Women's Initiative to catalyze over a 
billion dollars in capital to invest in projects that empower 
women worldwide. And OPIC signed an MOU with our Japanese 
counterparts to bolster investment in the Indo-Pacific region 
and beyond. A new modernized DFI could be far more competitive, 
creating countless opportunities throughout the developing 
world, but this modernization of development finance cannot 
happen without the support of this committee. I am extremely 
thankful for the leadership of Senator Corker and Coons and the 
many other Senators on the committee for embracing this concept 
through S. 2463. Indeed, the administration has noted its 
strong support for the goals of the legislation. I look forward 
to working with the committee as the process moves forward to 
ensure the DFI is structured for long-term success.
    I will be happy to answer any questions you might have.
    [The prepared statement of Mr. Washburne follows:]

                 Prepared Statement of Ray W. Washburne

                              introduction
    Chairman Corker, Ranking Member Menendez, Members of the 
Committee--thank you for inviting me to testify on this critical topic.
    Chairman Corker--I'd like to acknowledge all the work you have done 
to advance U.S. foreign policy. From Electrify Africa to efforts to 
combat human trafficking, you have been a champion for those in need 
around the globe. Ranking Member Menendez, your leadership has been 
instrumental in strengthening U.S. engagement in the world, 
particularly in the Western Hemisphere.
    Indeed, this Committee's work has helped set the stage for the 
Administration's proposal for the United States to establish a 
reformed, more effective Development Finance Institution--with 
modernized tools--and a focus on supporting private sector driven 
development.
          development finance and the international landscape
    When it comes to meeting the massive development needs around the 
globe and advancing American foreign policy, this proposal--and the 
legislation the committee is weighing--is essential.
    As you know, ``development finance'' uses tools such as loans, 
guarantees and political risk insurance to facilitate private-sector 
investment in emerging markets that will have positive developmental 
impact. These are transactions the private sector won't do on their 
own.
    The U.S. Government has used these tools through the Overseas 
Private Investment Corporation (OPIC) to back projects in key sectors 
such as power, water, and health that improve the quality of life for 
millions, and lay the groundwork for creating modern economies.
    Likewise, the U.S. Government has used USAID's Development Credit 
Authority (DCA) risk-sharing guarantee program to drive private 
investment into countries and sectors that have not had sufficient--or 
any--access to commercial finance.
    This model of mobilizing private investment is only becoming more 
prominent, as the needs in the developing world are just too great to 
meet with official government resources alone.
    Yet, U.S. capabilities have become outdated. We have been operating 
for years without significant legislative updates.
    As a result, we lack the modern, 21st century mechanisms needed to 
either compete with countries like China, or cooperate with allies like 
the United Kingdom, Germany, and Japan, which are investing heavily in 
emerging markets.
    And a global competition for influence is on. While I was in Asia, 
I saw how China's One Belt, One Road initiative is changing the 
political and economic landscape. The amount of investment China 
reportedly has planned for this initiative is staggering--aimed at 
interconnecting about 65 percent of the world's population, about one-
third of the world's GDP, and about a quarter of all goods and 
services.
    Of course, a condition of many of these loans is that Chinese 
firms--and labor--get the business. And we know what happens when 
countries can't pay. In December, for example, Sri Lanka gave control 
of a strategic port to Beijing for 99 years. This comes as China has 
been stepping up its presence in the Indian Ocean region and its 
critical shipping lanes.
    Mr. Chairman--we have to be engaged in the developing world with a 
robust alternative to these state-directed investments, which can leave 
developing countries worse off. This state-directed approach is not 
consistent with our values, which incorporate the high standards of 
international financial institutions related to governance, 
transparency, debt sustainability, environmental, and social 
safeguards.
                       the president's initiative
    We have that alternative in a new, U.S. Development Finance 
Institution (DFI).
    This proposal is a result of the President's Executive Order on 
reorganizing government, which prompted a fresh look at the issue. Over 
several months, we worked closely with the Department of State, USAID, 
and others through an inter-agency effort, led by the Office of 
Management and Budget and the National Security Council, to discuss 
challenges related to development finance. This group concluded that 
the U.S. Government's ability to deploy these tools strategically is 
limited by outdated legal authorities and fragmentation across 
government.
    With this in mind, the Administration developed a proposal to 
improve efficiencies, reform programming, and, as envisioned by the 
National Security Strategy, elevate development finance to help advance 
U.S. foreign-policy goals.
                proposed development finance institution
    The President's Fiscal Year 2019 Budget Request proposes to 
consolidate multiple U.S. development-finance functions, such as OPIC 
and USAID's DCA, into a new, standalone, Development Finance 
Institution (DFI) that will coordinate all development financing.
    The DFI will have better policy alignment through updated 
governance structures and stronger linkages to State and USAID to 
ensure the DFI's transactions also align with U.S. foreign policy and 
leverage USAID's programming. For example, the linkages include $56 
million requested in Economic Support and Development Funding that can 
be used to provide complementary technical assistance and grants for 
potential DFI projects that need a bridge to becoming investment ready. 
We also need to establish innovative governance and management 
structures to make sure the DFI works closely with USAID's Bureaus and 
field Missions, so USAID can invest in the DFI's transactions.
    Similarly, U.S. Embassies and diplomats will explore and champion 
new market opportunities on behalf of U.S. commercial, development, and 
national security interests.
    The Administration is requesting $96 million in administrative 
expenses and $38 million for credit programing, project-specific 
feasibility studies, and other tools for the DFI. However, through 
careful loan and insurance underwriting, it is expected the DFI will 
not only offset its own operation and program costs but also return 
hundreds of millions of dollars to the Treasury.
    The new DFI will include reforms to better manage taxpayer risk and 
ensure that U.S. government investments are additional to the private 
sector. We must ensure that while our work supports the creation of 
economic growth in emerging markets, it will not displace the private 
sector or subsidize projects that can or should find their own 
financing. And we must also ensure that this work upholds the highest 
environmental, social and worker rights standards.
    Another part of a reformed DFI is increased transparency and 
accountability. One example of how the DFI will achieve these 
objectives is through an expanded inspection, oversight, and evaluation 
function. The President's Budget requests a robust $2 million for this 
purpose.
                               conclusion
    Mr. Chairman: In 8 months as the head of OPIC, I've seen the power 
of the private sector unleashed to advance U.S. policy:

  <bullet> OPIC approved a transaction which will increase Ukraine's 
        energy independence from Russia;

  <bullet> OPIC formally launched its 2X Women's Initiative to catalyze 
        over $1 billion in capital to invest in projects that empower 
        women and stabilize communities; and

  <bullet> OPIC signed a Memorandum of Understanding with our Japanese 
        counterparts to bolster investment in critical sectors in the 
        Indo-Pacific and beyond.

    A new, modernized DFI could be far more innovative and competitive, 
creating countless opportunities for communities throughout the 
developing world who will benefit from the economic impact of its 
investments.
    But this modernization of development finance cannot happen without 
the support of this Committee through authorizing legislation. We are 
thankful for the leadership of Senator Coons and the many other 
Senators on the Committee for embracing this concept through S. 2463, 
and look forward to working with the Committee on the details of this 
legislation to ensure it grants the DFI the authorities and creates the 
structure needed to foster its long-term success.
    I would be happy to address any questions you may have.

    The Chairman. Thank you very much.
    I know your statements indicate this, but, just for the 
record, and for other members who are not here, the 
administration fully supports the legislation that we are 
discussing today. Is that correct?
    Mr. Washburne. Yes, sir.
    The Chairman. Yeah. You know, I listened to the Ranking 
Member's comments, and I think we all have had concerns about 
where we are going as it relates to being able to help other 
nations. In some ways, it is somewhat surprising that we have a 
piece of legislation that the administration is behind and, it 
looks like, in a bipartisan way people want to see occur. Could 
you share a little bit about some of the concerns that you and 
others have about what China is doing in other countries today?
    Mr. Washburne. Yes. Thank you.
    OPIC currently operates in 90 countries around the world. 
We are open in 130 countries. And, as we travel, whether I was 
in Peru, at the Summit of the Americas a few weeks ago, to 
Africa, the Chinese are everywhere. And we are--we cannot match 
them dollar for dollar, and there is no intent to match them 
dollar for dollar, but there is a lot of strategic investments 
we can make to counter the Chinese influence around the world. 
And that is why I have recently signed an MOU with the Japanese 
government as well as the Australian government, in the Indo-
Pacific region specifically, to work together on projects that 
we can not only source together, but also invest in together. 
In fact, this week, the--my Japanese counterpart was in 
Washington, and he came over to meet, and we went over multiple 
projects we are looking at doing together.
    The Chairman. What would the equity component--I know today 
you are constrained only to loan money, but tell us the kind of 
things that, with the addition of using equity--tell us what 
that might mean to an organization like, hopefully, will be 
created.
    Mr. Washburne. Well, the way OPIC was originally set up in 
1971, there has not been any change in our basic structure in 
how we can invest in projects. And, as you know, the world has 
changed substantially in the finance sector. We are being left 
out of a lot of projects by other countries because their DFIs 
all have the ability to actually be--put an equity piece in the 
projects. And so, since we only have a debt product, we are 
getting not only cut out of a lot of projects, but people just 
do not want us involved because we are senior debt to everyone, 
and they want to be pari-passu with us in the equity component 
of it.
    The Chairman. What--my understanding is, we have worked--
you have worked very closely with USAID. And actually, there 
was a markup yesterday, as I understand it, in the House, where 
some of the concerns that USAID had with this type of 
legislation were addressed. And a number of amendments were 
incorporated yesterday in the House to take care of some of the 
objections that they had. Can you share with us a little bit 
about how the process is working with USAID? There are numbers 
of people on this committee that strongly support the work that 
they do, and obviously do not want to diminish their ability to 
do their job.
    Mr. Washburne. Yes, sir. We have worked very closely with 
USAID. Administrator Green and I have met several times on 
this. He is supportive. The White House has given us a letter 
in support, which--what is being created through this new bill 
is a chief development officer. It is a new position. And that 
will ensure that we work seamlessly with USAID to meet their 
objection--their objectives of what they want to do. And so, 
what we are bringing in from USAID is actually fairly small. It 
is an agency that has 30 employees, about $500 million 
currently. But, we understand the importance that they are 
doing, but we are going to give their field officers a lot more 
tools to work with.
    So, actually, it is a huge benefit to USAID. They are going 
to go from being able to do one type loan, now they are going 
to have seven to eight different products that they can do. And 
it is important for us to have, because OPIC is really 
Washington's center project. We do not have field offices. Is--
now USAID and ourselves will be able to work together. It gives 
them a lot more capital to go out around the world and do 
projects. And they have the boots on the ground.
    The Chairman. So, USAID will actually be the face of the 
organization in these countries. Is that correct?
    Mr. Washburne. Well, they will be carrying--they will be 
like a rainmaking source for us. Yes, sir. Just like we use 
Commerce Department now, and their field officers, when we 
travel around the world. When we land, we need people on the 
ground that know the local markets.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Washburne, thank you for your testimony.
    We have come a long way from the administration's first 
budget, which--where the fate of OPIC was uncertain. We have an 
ambitious task before us.
    So, let me just follow up on the last question of the 
Chairman. So, if we bring Administrator Green here, put him 
under oath, he is going to say that he fully supports the 
legislation as it is?
    Mr. Washburne. Well, I cannot speak to what he would say 
under oath, but I do know----
    Senator Menendez. You say he is supportive. Would it change 
under oath?
    Mr. Washburne. Well, I cannot speak to what his feelings 
would be. He--I have not had any objections from him in my 
meetings with him.
    Senator Menendez. Can you--so, to understand where we are 
headed, I think we have to understand a few questions with 
regard to the financial health and development impact that you 
are having at OPIC. So, can you discuss for us OPIC's current 
portfolio as it relates to projects you deem highly 
developmental? And how do you determine that?
    Mr. Washburne. Yes, sir. Last week, we cut the ribbon in 
Honduras on a geothermal plant that is going to supply 
electricity to 40,000 homes in Honduras, not--these are homes 
that either do not have electricity or very spotty electrical 
service. It is not only going to transform that community, it 
is also going to enable that area to have--businesses to 
develop and economic activity happen; whereas, before, they had 
no electricity whatsoever. Yesterday, at our investment 
committee, we approved a loan in Africa to create cellphone 
service into four countries that--average GDP income in those 
countries is less than $500 a person. And so, those are two 
examples of how we are changing lives in those two countries.
    Senator Menendez. And what is your standard for the--
develop--saying something is highly developmental? What is your 
rule? What is your standard? What is your process by making 
that determination?
    Mr. Washburne. Well, every project--we are currently at 675 
projects. Every one has to stand on its own. Each one has its 
own objectives. So, there is not an in-writing standard for 
something, but we view everything through the lens of--through 
our committees, and we have many people----
    Senator Menendez. Does----
    Mr. Washburne. --walking through----
    Senator Menendez. Does something have to have a certain 
outcome? Does it----
    Mr. Washburne. Well----
    Senator Menendez. --have to have a certain ripple effect? 
There must be some----
    Mr. Washburne. Well, we----
    Senator Menendez. --paces by which----
    Mr. Washburne. --we do have a developmental matrix, which I 
am happy to get for you, on----
    Senator Menendez. I would like to see that.
    Mr. Washburne. --the impact, it happens.
    Senator Menendez. Yeah, I would like to see that.
    Mr. Washburne. Yes, sir.
    Senator Menendez. Let me ask you this. In discussing OPIC's 
current development scorecard, the methodology in measuring the 
develop impact of a deal, how do you look at that?
    Mr. Washburne. Developmental----
    Senator Menendez. Yeah. Looking at your current 
development----
    Mr. Washburne. Yes, sir.
    Senator Menendez. --scorecard, what is the methodology in 
measuring the development impact of a deal?
    Mr. Washburne. Well, that is the matrix, so that--I would 
be happy to----
    Senator Menendez. It is the same matrix?
    Mr. Washburne. Yes, sir.
    Senator Menendez. Okay. You will submit that to----
    Mr. Washburne. Yes, sir.
    Senator Menendez. --the committee?
    Mr. Washburne. I will.
    Senator Menendez. So, the question would be, can that 
methodology, or your matrix, be enhanced to support the new 
development corporation's approach to measuring its projects 
and integrating a monitoring and evaluation protocol for 
projects beyond the financial close of the project?
    Mr. Washburne. I am sure--if that is what the committee 
would like to present in the bill, yes, sir.
    Senator Menendez. Is that something--but, is that 
something----
    Mr. Washburne. Well----
    Senator Menendez. --that you have considered independently?
    Mr. Washburne. I would have to look at what the language 
would look like.
    Senator Menendez. Let me ask you this. You have indicated 
an interest in pushing OPIC to do more deals in Latin America, 
something that I would like to see, as well. Tell us about the 
profile of investors who are engaging OPIC to do deals in Latin 
America. What countries and sectors are they gravitating 
towards?
    Mr. Washburne. Well, one thing, we have tried to be is a 
little more outward-facing in projects. So, we have had teams 
down in what is--the T&T, which is the northern triangle of El 
Salvador, Guatemala, Honduras, looking for projects. So, rather 
than waiting for incoming calls under those areas, we have gone 
down to see what are the needs in those countries. For example, 
in Honduras, the geothermal plant to supply electricity. And 
then we try to match them up with development partners. We 
support--right now, 24 percent of our portfolio is in Latin 
America. And, like I said, I was recently in Lima. We were 
looking at projects in Peru, Colombia, throughout the--Latin 
America.
    Senator Menendez. Let me ask you this. You noted that USAID 
is supportive, but I understand that part of the challenge is 
that USAID missions, which do much of this work on the ground, 
do not have visibility or access to OPIC, which is demand-
driven from U.S. businesses. So, how can we increase 
coordination and cooperation to support development on the 
ground in pursuit of national interests?
    Mr. Washburne. Well, that is what this bill proposes to do 
with this--with our new USDFC established in those--we will 
send out marketing and interface with those people so they know 
they have a tool to go out and market with, just like we do at 
the Commerce Department today. And our chief development 
officer that will be--that will be his sole responsibility, is, 
how do we integrate between USAID and their purposes and with 
OPIC's or the new DFI's?
    Senator Menendez. One final question. Can you tell us how 
your board currently operates, the value of diverse opinions 
and expertise it brings? And would you agree that a mix of both 
finance and private-sector voices, as well as expertise from 
labor, human rights, and the interagency process, is important?
    Mr. Washburne. Yes. We have an excellent board today. When 
projects go to them, they are thoroughly scrubbed down by them. 
And I think a diverse opinion is very valuable.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I know there was some discussion. You good with that? Okay.
    Senator Coons.
    Senator Coons. Thank you very much, Chairman Corker, 
Ranking Member Menendez, both for holding this hearing, for the 
witnesses who are with us here today, and for the opportunity 
to legislate on an issue that I think is enormously important, 
about how the United States mobilizes its world-leading mastery 
of private capital to help the developing world.
    I would also like to thank, Mr. Chairman, you, 
specifically, for your leadership on this, and your staff, Andy 
Olson, who is been great to work with. My own staff, Tom 
Mancinelli and Anna Yelverton, have pitched in greatly. And 
this has been a terrific experience.
    I am also grateful for the other cosponsors of this bill, 
Senators Isakson, Murphy, Young, Shaheen, Portman, and Kaine. 
President Trump, as has been remarked, signaled his strong 
support for the BUILD Act, from his statements in Vietnam about 
development finance reform to references in the National 
Security Strategy.
    I also want to thank two former OPIC CEOs, Elizabeth 
Littlefield and Rob Mosbacher, for their support. And, Mr. 
Chairman, I would like to submit a letter from Ms. Littlefield 
to the--to our committee, for the record.
    [The information referred to above can be found at the end 
of this document.]
    Senator Coons. Mr. Washburne, I have greatly enjoyed 
getting to know you, working with you, and look forward to 
working together to implement this legislation.
    Ms. Littlefield, a former OPIC CEO, in her letter 
encourages members to support the BUILD Act, saying the 
legislation, and I quote, ``is the right step at the right 
time. It will advance America's national security aims, it will 
tap into the dynamism of America's companies and investors, it 
will project the best of America's values and accomplish all 
these in an efficient, cost-effective, and time-tested way,'' 
close quote. I agree. And I am optimistic that this important 
bill will move forward with broad bipartisan support.
    Last, I am grateful to the ONE Campaign, the U.S. Global 
Leadership Coalition, and the U.S. Chamber for everything they 
have done to help make this ready to move.
    Just in quick summary, it is because of the ways in which 
this will change the scope, the tools that you have available 
to you, and that the successor U.S. International Development 
Finance Corporation will have accessible to it in order to face 
the competition that we see in the developing world. In my 8 
years in the Senate, in a number of trips to the developing 
world, our competitors--the Chinese, principally, but many 
others--are everywhere with far more sophisticated and broad 
tools. So, I hope that we can work together to address concerns 
raised today and to make sure that this moves quickly through 
this committee.
    Thank you for a chance to make a statement. And, Mr. 
Washburne, it is been a delight to work with you, and with you, 
Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Mr. Washburne, welcome to the committee. Thank you for your 
service. I will be in Colorado Springs tomorrow.
    Mr. Washburne. Okay.
    Senator Gardner. So, I do not know when the last time you 
were able to make it out there, but I look forward to being out 
there.
    Mr. Washburne. I will be there in June.
    Senator Gardner. Very good. Thank you.
    Talking about some of the work that we have been doing in 
Asia, I know you and I have had an opportunity in the past to 
talk a little bit about this. Obviously, an important hearing 
to talk about how we can be expanding opportunities around the 
globe. The world's largest armies stand in Asia, five of seven 
U.S. defense treaty allies are in Asia. We cannot simply let 
China go unchallenged as--in terms of the tools of economic 
coercion that they continue to use and threaten U.S. national 
economic interests. According to projections, by 2030, 66 
percent of the global middle-class population will be in Asia, 
99 percent of middle-class consumption will be in Asia. It is a 
region very much to determine our future.
    Therefore, I wanted to talk a little bit about the bill 
that I have introduced recently, bipartisan legislation, along 
with Senator Markey, Senator Cardin, Senator Rubio, and I. The 
Asia Reassurance Initiative Act, S. 2736, introduced 2 weeks 
ago, calls on the administration to engage in, one, 
multilateral, bilateral, or regional trade agreements that 
increase U.S. employment and expand the economy; formal--two, 
formal economic dialogues that include concrete outcomes; 
three, high-standard bilateral investment treaties between the 
United States and nations in the Indo-Pacific region; four, 
negotiations of the Trade and Services Agreement and 
Environmental Goods Agreement that include several major Asian 
economies; five, the proactive strategic and continuing high-
level use of the Asia-Pacific Economic Cooperation Forum, the 
East Asia Summit, and the Group of 20 to pursue U.S. economic 
objectives in the Indo-Pacific region.
    ARIA also provides an authorization for a more robust U.S. 
commercial presence throughout the Indo-Pacific to improve U.S. 
exports, to promote U.S. exports, additional trade facilitation 
efforts, authorizes the imposition of penalties on entities and 
governments engaged in the theft of U.S. intellectual property, 
and requires a new comprehensive U.S. policy to promote energy 
exports to the Indo-Pacific.
    I give you that summary, Mr. Washburne, to ask you this 
question. Do you believe that the initiatives, like those I 
referenced in ARIA, would be a help, a boost to the United 
States to build a--help build a more robust, long-lasting 
economic/commercial presence in the Indo-Pacific?
    Mr. Washburne. Well, thank you, Senator. I am not familiar 
with your legislation, but what you just said is--yes, I would 
be. We--as I stated earlier, we just recently signed an MOU 
with the Japanese government and the Australians--we are 
currently working on them with the Indian government--to 
provide more vehicles for us to invest in throughout that 
entire region, in all areas. But, it is very important to us, 
with the Chinese influence in that area, and their Belt and 
Road Initiative, that OPIC, or the new DFI, would be used as--
in that region to find the type investments to the--what you 
speak to.
    Senator Gardner. Yeah. And when we talk to governments 
around the region--around the world, quite frankly--that have 
seen Chinese investments from the government, they talk about 
the sustainability of those investments, those projects. Could 
you talk a little bit about whether or not you believe these--
China's--China's investments, particularly in Asia, are 
sustainable in the long run?
    Mr. Washburne. Well, what the Chinese are doing is what, in 
the real estate business, they call ``loan to own.'' And what 
they are doing in these projects--and they did this in Sri 
Lanka--they are overloaning on projects, they are bringing 
their own workers in, and, in fact, leaving them behind 
afterwards, not even using local workforces. By putting so much 
leverage on these projects, like they did in Sri Lanka, 
foreclosing a port that was brand-new built, but it had so much 
debt on it, there was no way it could service it, and they just 
took it away. So, they are using too much debt and throwing too 
much money at these projects to force these countries into 
submission on giving these key resources up.
    I spent a lot of time in Zambia. In the summer, we built an 
orphanage there. And I will be out there again 2 weeks this 
summer. And, when you land at the airport there, it is a 
Chinese terminal. As you are driving into town, it is a new 
soccer stadium built by the Chinese. It is all over. And this 
is a small country in the middle of Africa. So, if you can 
imagine it is happening there, think what it is doing in 
strategic sea lanes and ports around the world.
    Senator Gardner. Well, thank you. And I think, particularly 
on this area, a U.S. presence--long-term strategy is incredibly 
important, and U.S. presence means a lot. And so, if we are 
going to take an opportunity to benefit and help people learn 
from sub-par investments that China may be making, or at least 
the penalties that a country may face as a result of 
cooperating with what once was a beneficial agreement, then we 
have to be present. And I think ARIA legislation to provide 
that reassurance is necessary to our allies.
    Thanks, Mr. Washburne, Mr. Chairman.
    Mr. Washburne. Thank you.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. First, thank you for your service. I 
strongly support OPIC's functions. We have many Maryland 
companies that have benefited by it.
    But, I want to drill down a little bit on your efforts in 
regards to small businesses, minority businesses, and women-
owned businesses. OPIC has a goal of producing a certain amount 
of its business in small businesses. I believe your goal is 30 
percent. Could you just go over with me how you are making sure 
that that goal is achieved, and how you go about determining 
what businesses qualify for that type of analysis?
    Mr. Washburne. Sure. Thank you for the question.
    Our initiative that we set up last fall is our--what we 
call our 2X Women's Initiative. And we are catalyzing a billion 
dollars of investment to go to--focused on women-owned 
business. And a specific example would be in Costa Rica. We 
went in and put a lending vehicle, with Citibank, into a bank 
in--called the Bank of San Jose in Costa Rica. OPIC put in 50 
million, Citibank put in 20, and the local bank put in around 
10 to 15 million dollars. Of that, 20 percent is specifically 
targeted to women-owned businesses. OPIC has never done that 
before, so we are now doing that throughout our portfolio. And 
small and medium enterprises, SME lending--as we do this 
throughout the world, that is how we get loans down to small 
businesses. This week, we did a loan, $100 million project for 
another bank in debt focuses in El Salvador and Guatemala. What 
they do is, they take small, medium enterprise loans, and 20 
percent of that is targeted towards----
    Senator Cardin. Can you define for me what a small, a 
medium-size----
    Mr. Washburne. It would be someone who needs a truck to go 
deliver, you know, bakery goods, because they own a bakery, 
or--I cannot give you the dollar, because every country is 
different, but a small and medium-sized business would be--not 
a GE or somebody, but a smaller--and I can come to you with our 
exact terms of what an SME loan would be. But, what we do is, 
we find the local banks, know their customer, they know the 
lenders, so, by putting the money into those banks, they were 
able to spread it out organically throughout their--you know, 
the ecosystem of the banking market that they are in.
    Senator Cardin. And I would appreciate it if you could----
    Mr. Washburne. Yes, sir.
    Senator Cardin. --supply that information to us as to how 
you go about determining--30 percent is a goal. There is no 
legal requirement, as I understand.
    Mr. Washburne. That is correct. And it is extremely high 
priority. That is why--the first thing I did when I came in was 
set up the Women's Initiative, to kick that off, because that 
showed--when I was in--I recently was in India. We are helping 
the finance a--FinTech, in India, to where women, on their 
phone--well, any small-business person, will have the ability 
to borrow money, like $5, on their phone, which, in a country 
with a very small GDP, is----
    Senator Cardin. So, if you would get us that information--
because, as we look to trying to partner with you, there are 
things that we might be able to do to help you----
    Mr. Washburne. Yes, sir.
    Senator Cardin. --in being able to evaluate these types of 
opportunities in a more aggressive manner.
    I want to go into minority businesses, as well, and what 
you are doing there. The Minority Business Development Agency 
is slated, I think, for termination under the President's 
budget. And that is an arm within Commerce. I think the 
President says that that duplicates the work being done by the 
Small Business Administration. I want to know what efforts and 
services you use in order to reach out to minority businesses 
as part of OPIC's function.
    Mr. Washburne. Well, I personally, as president of OPIC, 
have reached out. I have spoken to many minority groups. I have 
promoted--75 percent of our business is with small U.S. 
businesses that go abroad. So, we are out--we actively do 
market to all commerce.
    Senator Cardin. Seventy-five percent would be the number 
of----
    Mr. Washburne. Companies, yes.
    Senator Cardin. --number of companies. And again, how do 
you determine that they are small?
    Mr. Washburne. I would have to get you the terminology.
    Senator Cardin. Okay. I would be interested how that----
    Mr. Washburne. Yeah.
    Senator Cardin. And how many of those are minority 
businesses?
    Mr. Washburne. I would have to get you that number.
    Senator Cardin. Yeah. Okay, if you could get that 
information----
    Mr. Washburne. Yeah.
    Senator Cardin. --to us, I think it would be very helpful.
    As you know, during the debate on OPIC, there was a 
challenge as to whether this is really just for big companies 
or--who benefits from OPIC. We want to make sure that it is an 
inclusive operation, giving opportunities for minority 
businesses, small businesses, to participate. And we have 
found, in the small-business arena, there are certain programs 
that we have. We would like to see how well that is coordinated 
by what OPIC is doing in order to make sure that we really are 
providing opportunities for diversity in American businesses 
participating in export.
    Mr. Washburne. Okay.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Just a couple of last questions. Is the India project you 
are referring to the one that the President's counselor, Ivanka 
Trump, was promoting when she was on the trip?
    Mr. Washburne. That Ivanka was on?
    Senator Menendez. Yes.
    Mr. Washburne. Well--no.
    Senator Menendez. That is----
    Mr. Washburne. When I was in India and Ivanka was there, we 
were promoting a--just women's businesses, in general, which 
she was not part of. Actually, I did not even speak on a panel 
with her or anything. She was there marketing her own agenda.
    Senator Menendez. And so, the--any loans that you made 
there are not in connection with that?
    Mr. Washburne. Oh, no.
    Senator Menendez. No.
    Mr. Washburne. No, sir, not at all.
    Senator Menendez. Let me ask you this. The BUILD Act very 
intentionally removes the U.S. nexus requirement----
    Mr. Washburne. Right.
    Senator Menendez. --that OPIC has exercised for over 30 
years. Why do you think that is the way to go?
    Mr. Washburne. Well, that is what the committee has 
decided. The U.S. Chamber of Commerce came out in support of 
this bill and that provision. And we have got a letter of 
support, which we are happy to submit to the committee, and--
submit it. But----
    Senator Menendez. I am asking you, as the----
    Mr. Washburne. But, we have----
    Senator Menendez. --president of OPIC----
    Mr. Washburne. Well, we have a U.S.-company preference on 
every loan we look at. And everything we look at is--goes 
through that lens.
    Senator Menendez. Yeah, but a preference does not mean you 
have to have a U.S. nexus, right?
    Mr. Washburne. Yes, sir, but that is--correct.
    Senator Menendez. That is correct. And you think that is 
the way to go?
    Mr. Washburne. That is how the committee has presented it 
to us.
    Senator Menendez. I did not ask you that.
    Mr. Washburne. Well, I think it gives OPIC the ability to 
have greater flexibility in doing projects.
    Senator Menendez. What assurances can you give the Congress 
that, if this is the law, that you will be financially prudent 
in entering into deals with non-U.S. companies and potentially 
state-owned enterprises?
    Mr. Washburne. Well, again, we believe that there is going 
to be preference given to U.S. companies. As far as--the board 
signs off on projects, so I--all I can say is, it goes through 
a lens of ``America first.''
    Senator Menendez. That is not the--that is not very 
reassuring.
    Mr. Washburne. Well, Senator, I--the language presented to 
us, and then it came out of the House and then it is going to 
come out of your committee, is--that was the language that was 
in the----
    Senator Menendez. Well, my point--the reason to have 
witnesses is not to tell me what the----
    Mr. Washburne. Right.
    Senator Menendez. --committee wants. I understand what the 
Chairman and----
    Mr. Washburne. Right.
    Senator Menendez. --and the--Senator Coons and others want. 
The reason to have you here is to gather your expertise. So, my 
question is--let me repeat it again--how are we going to have 
an assurance that you are going to be financially prudent in 
investing in non-U.S. companies or, you know, state-owned 
enterprises, which you would be allowed to do under this 
version of the law?
    Mr. Washburne. Sure. Well, look, in OPIC's history, I think 
the agency's been extremely prudent. It has made a profit for 
40 years in a row. And our lens that we go through on loan 
committees or investment committees is a very stringent process 
to go through. And so, we have the ``American first'' lens on 
everything that we do. I--the assurance I can give you is just 
my assurance that, you know, this is an American agency, and 
that is the focus on what we are doing. The U.S. Chamber, 
again, looked at it and issued a letter in support.
    Senator Menendez. Well, I appreciate that the U.S. Chamber, 
which is about promoting business at the end of the day, has 
its interests. But, my job here, as a United States Senator, is 
to promote the national interests of the United States, the 
national security of the United States, and development policy 
across the globe that pursues that national interest. That may 
not be bottom-dollar oriented, which the U.S. Chamber of 
Commerce does. So, that they have issued an endorsement is 
fine, but it is not my guiding post to understand whether or 
not something is good.
    So, I am looking forward to getting a better understanding 
as to how--since you do not have the U.S. nexus anymore, 
notwithstanding with a lens of ``America first,'' but it is a 
lens that is not 20/20, because you can invest in foreign 
entities, you can invest in state-owned enterprises. And when 
we do that, that changes the dynamics for me about what our 
focus is.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    If I could, just on that note, I mean, right now, I guess, 
through USAID, we grant money to various entities around the 
world. We just give it away, right?
    Mr. Washburne. Uh-huh, yes.
    The Chairman. Is that correct? And so, I guess the purpose 
of this is to try to have a return on investment and to get 
other enterprises in these countries that are impoverished to 
flourish by loaning them money based on free-enterprise kinds 
of standards. Is that correct?
    Mr. Washburne. Yes, sir. And, look, our goal is to 
strengthen these markets through private investment. And if a 
U.S. Company is not going to go into a market that needs a 
specific thing, and another----
    The Chairman. Yeah. Well----
    Mr. Washburne. --is willing to----
    The Chairman. --if I could, I mean, one of the issues that 
I think has existed, and certainly been an issue to me, is 
that, when we have U.S.-centric-only lending, which we want to 
make sure that our U.S. companies are doing business around the 
world, no question, as Senator Menendez was just alluding to, 
but we also want the economies of these countries to flourish; 
and many of the companies there obviously are not owned by U.S. 
companies, but we want them to be on their own feet. Is that 
correct?
    Mr. Washburne. That is correct.
    The Chairman. And so, this is a way of leveraging U.S. 
resources, where we are not giving it away, it is actually 
returning back to the taxpayers, but allowing development to 
take place in a real market-oriented way, versus just granting 
money away, which is the way our existing programs are, 
typically, with USAID. Is that correct?
    Mr. Washburne. That is correct, sir.
    The Chairman. So, it is another tool that uses the kind of 
standards that we use in our own country to help these 
countries flourish.
    Mr. Washburne. That is correct.
    The Chairman. Senator Kaine.
    Senator Kaine. Mr. Chair, I am going to save my questions 
for panel two.
    The Chairman. Okay.
    Senator Menendez. All right. Chairman, just a comment, in 
response to your comments about mine.
    There are times in which you say ``giving it away'' is--I 
am sure when I----
    The Chairman. Right.
    Senator Menendez. --when I see--when I--well, I am sure, 
when I see your methodology, your matrix, whatever, there are 
important development projects in the world that would not meet 
the matrix that OPIC puts out. So, there is a balance between 
that which we do through the private sector----
    The Chairman. Yeah.
    Senator Menendez. --and that which we do because we think 
it is in our national interests. It is not just about giving it 
away. We never give it away without a purpose, right?
    The Chairman. Sure. No, no question. And I support that, 
also. My point is, is that what this development organization 
would be doing under this redefined--certainly, you are going 
to give preference to U.S. businesses, but it is not unlike 
what we do every single day with USAID, only, in this 
particular case, we are asking for repayment and return on 
investment. So, it is another way of helping these very 
entities that we are already helping through USAID, that I also 
support.
    Any other questions?
    [No response.]
    The Chairman. With that, we appreciate your----
    Mr. Washburne. Thank you.
    The Chairman. --leadership. Thank you for being here. And 
we look forward to continuing to work with you.
    Mr. Washburne. Thank you.
    The Chairman. Call the second panel up.
    Thank you, Bertie.
    Our first witness is Mr. Daniel Runde, Director for the 
Project on Prosperity and Development at the Center for 
Strategic and International Studies. He was previously the 
Director of the Office of Global Development Alliances at 
USAID. He has also worked with global private foundations and 
corporations to leverage funds for the development finance 
partnerships.
    Our second witness is Mr. George Ingram, Senior Fellow at 
the Global Economy and Development at Brookings Institution. He 
previously served as Principal Deputy Assistant Administrator 
at USAID and has an extensive background in public and private 
sectors on development policy.
    We thank you both for being here. And it is likely that I 
think you will be able to answer some of the questions that 
were asked just a moment ago. We thank you so much for your 
previous service for our Nation and what you are doing now.
    And, with that, Mr. Runde, if you would just begin. And 
limit your comments to about 5 minutes. Any written materials, 
we will be glad to enter into the record.

   STATEMENT OF DANIEL RUNDE, WILLIAM A. SCHREYER CHAIR AND 
  DIRECTOR, PROJECT ON PROSPERITY AND DEVELOPMENT, CENTER FOR 
      STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Mr. Runde. Thank you very much. Chairman Corker, Ranking 
Member Menendez, and distinguished members of the committee, 
thank you for asking me to testify before you today. It is a 
privilege and an honor.
    I want to recognize the incredible work of dozens of 
staffers on this committee, HFAC, a number of key congressional 
offices, the team at OPIC, and at the Trump White House, who 
have made all this possible. I want to especially single out 
you, Senator Corker and Senator Coons, for--and your teams--for 
your leadership on this.
    Let me make several key points with my time today. First is 
that this committee and Congress should approve the BUILD Act, 
for four reasons:
    The first is, the world has changed. The developing world 
needs more American investment and more private investment, 
generally.
    Two, China is currently filling the void. A new Development 
Finance Corporation, a DFC, can be part of the answer to the 
China challenge. Frankly, China is eating our lunch around the 
world. We cannot change China's policy, but we can have a 
better offer than China. This new DFC is part of that better 
offer. We need a new national economic strategy to organize 
ourselves better, and this new DFC will be a part of that 
larger strategy.
    Third, foreign assistance is still a very necessary 
component of U.S. development, but foreign aid will not be 
enough or may not be, at times, the right kind of money to 
solve every challenge that we are going to encounter. The 
Young-Shaheen Task Force on Reforming Foreign Assistance talked 
about foreign assistance as a catalyst and bringing others in, 
including the private sector.
    Fourth, the new DFC can help with a series of national 
security and foreign policy challenges better than our current 
set of development finance instruments. Refugees, drug-financed 
gangs, terrorists, and human trafficking all are challenges 
that can be partially addressed with projects financed by this 
new DFC. We have a youth bulge in places such as Africa, the 
Middle East, and in the northern triangle of Central America, 
where a possible demographic dividend could turn into a 
demographic nightmare without enough economic growth and jobs 
for these young people.
    The Overseas Private Investment Corporation is a powerful 
development agency, but it is in need of a refresh to allow it 
to fully compete. Our allies want to work with OPIC. But, given 
some of its limitations, it is difficult for them to work with 
us and to work with OPIC.
    The current Senate version of the BUILD Act provides 
several important improvements to OPIC. It makes--allows it to 
make equity investments, to provide technical assistance, 
provides a 20-year authorization, and creates a preference for 
American investors. Let me address, specifically, Senator 
Menendez's point in this, in that, rather than our climate. 
This is important in contexts such as Afghanistan, where we 
need American soft power at work, but it is almost impossible 
to get an--a credible American investor to go. So, that would 
be the reason to have a preference. I am happy to talk about 
that further in the Q&A, Senator.
    And let me just make a couple of other points. Having said 
all this, the bill could benefit from some small improvements 
that can happen in the normal market process. My suggestions 
for improvements are related to the more explicit institutional 
linkages between USAID and the new Development Finance 
Corporation. When USAID reaches for finance tools, they should 
understand the breadth of what the new DFC can do. And when the 
new DFC is thinking about an investment, it needs to understand 
what AID can do. USAID will still need to work with and support 
the private sector through host-country regulators across an 
industry, through Chambers of Commerce, or sometimes with 
particular companies. For example, AID helps set the table for 
the kinds of massive investments in the telecom sector in 
places like Africa or Afghanistan. They do technical 
assistance, working with regulators to allow for private 
investments to happen. So, the kinds of things I am describing 
are setting-the-table kinds of work, not making investments.
    Some specific improvements for your consideration for the 
bill:
    First, the Development Credit Authority has been 
tremendously successful as a part of USAID. The person who runs 
the Development Credit Authority function needs to know AID. 
And the best way to ensure this would be to make the new office 
director dual-hatted as a USAID and DFC employee and making the 
office director a USAID Senior Foreign Service slot.
    Second, the position of chief development officer 
envisioned at the DFC should also be dual-hatted, accountable 
to USAID and the DFC. This chief development officer could also 
be a USAID Senior Foreign Service slot.
    Third, I think the new DFC is going to need a small cadre 
of full-time investment officers overseas. These investment 
officers should be embedded in USAID missions and should work 
as part of the USAID mission team.
    This is not your grandparents' developing world. It is 
richer, freer, and has far more agency than it did 40 years 
ago. If we do not meet the hopes and aspirations of our friends 
and allies, they will take their business to the Chinese. At 
the same time, a number of national security challenges require 
private-sector solutions as part of our response. Rather than 
look at many developing countries as simply recipients of aid, 
we must look at them as partners who desire a new relationship 
built around trade, investment, and economic growth. The BUILD 
Act, when passed, will help us to respond to all this. And I 
consider the BUILD Act to have the potential to be the most 
important development legislation that will be passed in the 
next 10 years.
    So, thank you for this opportunity to testify before the 
committee on this important topic. And I look forward to your 
questions.
    [The prepared statement of Mr. Runde follows:]

                 Prepared Statement of Daniel F. Runde

                              introduction
    Chairman Corker, Ranking Member Menendez, and distinguished members 
of the committee, thank you for asking me to testify before you today. 
It is a privilege and an honor.
    I want to recognize the incredible work of dozens of staffers on 
this committee, HFAC, a number of key congressional offices, the team 
at OPIC, and at the White House who have made this all possible. I also 
want to single out Senator Coons and his team for their leadership on 
this important issue.
    Currently, I hold an endowed chair at the Center for Strategic and 
International Studies (CSIS), researching how we might use American 
soft power and influence around the world. I served in the Bush 
Administration at USAID and worked for a time at the World Bank Group 
after starting my career in investment and commercial banking. I have 
been working and writing on the issue of development finance for more 
than 15 years.
    I am submitting a series of my reports and articles published by 
CSIS, Forbes, and Foreign Policy--for the record. Let me make several 
key points with my time today.
             evolved development finance and the build act
    My message is: this Committee and Congress should approve the BUILD 
Act for four reasons:

    1) The world has changed. The developing world needs more American 
investment and more private investment generally.
    2) China is currently filling the void created by a lack of funds. 
A new Development Finance Corporation (DFC) can be part of the answer 
but it cannot be the full response of the United States to the China 
challenge. Frankly, China is eating our lunch around the world, 
especially in Southeast Asia, Africa, and Latin America. China offers 
quick financing and no questions asked infrastructure projects in these 
places. We cannot change China's policy, but we can have a better offer 
than China. This new DFC is part of that better offer.
    3) Foreign assistance is still a necessary component of U.S. 
development, but ODA and aid will not be enough, or the right type of 
funds. Confronting poverty requires more investment capital. The Addis 
Ababa Financing for Development Conference of 2015 saw foreign 
assistance as a ``catalyst'' and put a greater emphasis on other forms 
of financing including private financing. The phrase that was adopted 
was ``from billions (in foreign assistance) to trillions (in the form 
of private investment, taxes collected, local private savings, etc.).'' 
The challenges we face are going to be bigger than the billions that we 
can mobilize through foreign aid. We need to move from billions to 
trillions. For example, in 2016, total global ODA amounted to $142.6 
billion.\1\ However, according to the Asian Development Bank Institute 
meeting infrastructure investment needs in Asia alone will require $1.7 
trillion annually over the next 25 years.\2\
    4) The new DFC can help with a series of national security and 
foreign policy challenges better than the current set of development 
finance instruments that the United States has at its disposal. Someone 
once said, ``the best social program is a job.'' Illicit drugs, 
refugees, drug financed gangs, terrorists, and human trafficking all 
can be partially addressed with projects by this new DFC. We have a 
youth bulge in places such as Africa, the Middle East, and the Northern 
Triangle of Central America, where a possible demographic dividend 
could turn into a demographic nightmare without enough economic growth 
and jobs for these young people. These young people could be customers 
for American goods and services or they could be sources of danger for 
us and our allies. The key differentiator is meaningful work. In places 
such as Afghanistan, getting electricity, growing licit agricultural 
crops, and starting new companies are directly linked to the security 
of our troops. In many post-conflict situations, having alternatives to 
being a soldier or a member of a militia is dependent on real economic 
alternatives. The new DFC will be able to help with these challenges.

    The Overseas Private Investment Corporation (OPIC) is a powerful 
development finance agency, but one that operates with outdated 
instruments and authorities. OPIC is in need of a refresh to allow it 
to fully compete in today's world. Our allies, such as Japan and the 
UK, have DFIs and want to work with OPIC but given OPIC's current 
limitations it can be difficult to work in a coordinated way with OPIC. 
The current Senate version of the BUILD Act provides several important 
improvements to OPIC, allowing the new DFC:

    1) To make equity investments,
    2) To provide technical assistance,
    3) To take smart risk using local currency loans, first loss 
guarantees, and provision of small grants,
    4) To raise the spending cap on the DFC's investments to $60 
billion, more than doubling OPIC's current $29 billion funding cap.
    5) To provides a 20-year authorization,
    6) And to create a preference for American investors, rather than a 
requirement. This is important in contexts such as Afghanistan where we 
need American soft power but where it is almost impossible to get 
credible American investors to go due to security or the absence of 
legal and regulatory frameworks.

    I am encouraged to see that the BUILD Act includes a strong 
preference for the new DFC to work in lower-income and lower-middle 
income countries. There will be times where the new DFC should make 
investments in poorer parts of wealthier emerging markets, but the 
emphasis should be on poorer, more conflict affected countries.
    I was also encouraged by the inclusion of the potential for future 
enterprise funds which are an underutilized tool of the United States, 
and a complement to the new Development Finance Corporation. The United 
States should update enterprise funds to the 21st century and we should 
use enterprise funds much more often. A future round of enterprise 
funds should be considered as an important supplement to the new DFC.
                            recommendations
    Having said all of this, this bill could benefit from some small 
improvements that can happen in the normal markup process.
    My suggestions for improvement are largely related to more explicit 
institutional linkages, or ``jointness'' between USAID and the new 
Development Finance Corporation. Legislation should require regular 
secondments/rotations among USAID, MCC, the new DFC and perhaps other 
agencies.
    When USAID reaches for finance tools, they should understand the 
breadth of what the new DFC can do. When the new DFC is thinking about 
an investment that might lead to reform of a sector like the telecoms, 
the DFC needs to understand what USAID can do.
    The Congress should make explicit that it expects USAID to continue 
to work on ``private sector development''--a central part of USAID's 
work. USAID will need to continue to work with and support the private 
sector, with host country regulators, across an industry, through 
chambers of commerce, or with particular companies. For example, the 
massive private sector investments in the telecoms sector in Africa and 
Afghanistan required changes in the rules about how many cell phone 
companies could operate and under what rules of the game. These changes 
to the rules of the game were often done by agencies such as USAID. 
USAID does much of the work to ``set the table'' to enable investments 
by DFIs such as OPIC.
    Here are some specific additional improvements for your 
consideration:

    First, the Development Credit Authority has been tremendously 
successful as a part of USAID. The person who runs the DCA function 
needs to know USAID. The best way to ensure this would be to make the 
new office director ``dual hatted'' as a USAID and DFC employee, and by 
making the office director role a USAID senior foreign service slot.
    Second, the position of the Chief Development Officer at the DFC 
should also be ``dual hatted'' accountable to USAID and the new DFC. 
The Chief Development Officer should also be a USAID senior foreign 
service slot.
    Third, I think the new DFC is going to need a small cadre of full 
time investment officers overseas. There is a reason why DFIs such as 
CDC in the United Kingdom have their own field staff: they need people 
on-site who understand development finance. These investment officers 
should be embedded in USAID missions and should work as part of the 
USAID mission team.
    Fourth, I would also urge the Committee to give the new DFC the 
capacities to support early stage investments, many entrepreneurs 
cannot get access to this type of investment which requires higher risk 
tolerance and more patience.
                              conclusions
    This is not your grandparents' developing world--it is richer, 
freer, and has far more agency than it did 40 years ago. If we do not 
meet the hopes and aspirations of our friends and allies, they will 
take their business to the Chinese. At the same time, a number of our 
national security challenges require private sector solutions as part 
of our response. Rather than look at many developing countries as 
simply recipients of aid, we must look at them as emerging or even 
emerged partners who desire a deeper relationship built around trade, 
investment, and economic growth. We should not let this moment pass. 
The BUILD Act, when passed, will be the most important piece of 
international development legislation in more than a decade.
    Thank you for the opportunity to testify before the Committee on 
this important topic, I look forward to your questions.

----------------
Notes

    \1\ http://www.oecd.org/dac/development-aid-rises-again-in-2016-
but-flows-to-poorest-countries-dip.htm
    \2\ https://www.forbes.com/sites/danielrunde/2017/04/05/we-
shouldnt-be-eliminating-opic-we-should-be-putting-it-on-steroids/
#1cdcf0173156

    The Chairman. Thank you. Thank you very much.
    Mr. Ingram.

 STATEMENT OF GEORGE INGRAM, SENIOR FELLOW, GLOBAL ECONOMY AND 
       DEVELOPMENT, BROOKINGS INSTITUTION, WASHINGTON, DC

    Mr. Ingram. Chairman Corker and Senator Menendez, my 
appreciation for the invitation to testify today. And special 
thanks to the Chairman and Senator Coons for introducing the 
BUILD Act, recognizing the importance of strengthening the U.S. 
economic development toolkit.
    Dan has laid out the rationale for a more robust U.S. 
development finance instrument and the strengths of the BUILD 
Act, so I will focus on just four ways in which I believe the 
act could be--the bill could be strengthened.
    The development mandate. To your point, Senator Menendez, 
the bill establishes development as the mission, but without 
clarity and definition of scope. I think that gap can be filled 
very easily with a definition of ``development'' in the bill. 
And the example I would use, a good model, is the MCC statute, 
which establishes as the purpose of the MCC to promote economic 
growth, the elimination of extreme poverty, and strengthen good 
governance, economic freedom, and investment in people. The 
Modernizing Foreign Assistance Network, which I co-chair, has 
shared with committee staff this and other improvements to the 
development mandate covering accountability, evaluation, 
learning, and transparency.
    And, with respect to transparency, language should be added 
to the bill to specify that the data must be publicly 
available, and it must be available on a project-by-project 
basis, not just on a country basis, as provided by the bill, 
and that data must be timely, comprehensive, and comparable, as 
is provided in the Foreign Aid Accountability and Transparency 
Act, which this committee authored.
    Second point, on the IDFC-USAID relationship, a strong and 
proactive relationship between the two is critical to U.S. 
achieving its development objectives. The bill seeks to do this 
through designating the Administrator of USAID as the vice 
chair of the board, and suggests the position of a chief 
development officer. I would suggest that that position should 
be mandated by the bill, and the duties of that officer should 
be enumerated as I lay out in my submitted--my statement for 
the record.
    The fact is, legislation can only lay the framework, but 
not hard wire relations between two agencies. And, while agency 
coordination has improved in recent years, particularly through 
such programs as Power Africa, it ultimately comes down to 
personalities, who is in the right place. And this committee 
can facilitate the relationship through its advice-and-consent 
authority to ensure that the appropriate person, someone with 
extensive development expertise, hopefully at USAID, fills that 
position.
    Third point, the Office of Private Capital and Micro-
Enterprise. The bill would move the office to the IDFC. This is 
unnecessary and a mistake. This relatively small office serves 
as USAID's center of excellence in technical knowledge for 
private-sector activities. My written statement illuminates the 
centrality of private enterprise to USAID's activities. If the 
office were moved, USAID would simply have to recreate the 
technical capacity so as to maintain the ability to provide 
advice and guidance to country missions and other units. In 
fact, given the importance of the two agencies collaborating on 
programs and projects, and the role that USAID performs in 
advancing business-friendly environments, the IDFC needs AID to 
have this technical expertise.
    Finally, on labor, environment, and human rights, the OPIC 
statute sets out specific mandates in these areas. Today's 
expectations and sound business practices are even stronger 
than when these provisions were written into law. Business 
leaders have come to understand that these are not just nice 
cosmetic social concerns, that following them can benefit the 
bottom line. Companies today are adopting comprehensive 
commitments on sustainability, as reflected by some 7,500 
companies issuing sustainability and responsibility reports. In 
complying with its legislative mandate in this arena and 
following corporate practice, OPIC utilizes the performance 
standards on environmental and social sustainability of the 
International Finance Corporation. A simple and elegant 
legislative alternative to the multiple legislative provisions 
is simply to mandate that the IDFC should follow the IFC 
guidelines.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ingram follows:]

                 Prepared Statement of George M. Ingram

    Chairman Corker and Ranking Member Menendez, my appreciation for 
the invitation to testify today, and to Chairman Corker and Senator 
Coons for introducing the BUILD Act in recognition of the importance of 
strengthening the U.S. economic development tool kit.
    I am George M. Ingram, senior fellow at the Brookings 
Institution\1\ and co-chair of the Modernizing Foreign Assistance 
Network (an alliance of individuals and organizations committed to 
improving the effectiveness of U.S. assistance).
    Data speaks volumes as to the importance of building out the nearly 
50-year-old Overseas Private Investment Corporation into a new, strong 
instrument of development finance.
    The seminal Better Business Better World\2\ asserts that achieving 
the Global Goals will not just help our planet, it will help our 
wallets. The report estimates that accomplishing the 17 global 
Sustainable Development Goals across four economic systems opens market 
opportunities of $12 trillion, a figure which may double or triple if 
the full scope of the SDGs is achieved. Aside from trillions in value 
being at stake, as the report states, ``there is also the opportunity 
to shape a safer, more prosperous world with a more predictable future 
in which to invest and innovate. There is the chance to rebuild trust 
between business and wider society.''
    In 2015, the Overseas Private Investment Corporation (OPIC) held a 
total portfolio of $20 billion, while its European sister agencies held 
more than twice that amount ($45 billion).\3\ Outstanding balances for 
the China Exim Bank totaled $378 billion in 2016, and the China 
Development Bank held $360 billion in international assets. The 
opportunities are vast, the competition is intense, and the U.S. needs 
to step up to the challenge.
    The BUILD Act addresses that challenge, among other ways, in 
providing the authority to make equity investments and extend technical 
assistance; raising the contingency liability to $60 billion; providing 
a multi-year authorization; and creating strong links between the IDFC 
and USAID. However, there are ways in which it can be strengthened.
                       clear development mandate
    The bill establishes development as the mission of the IDFC, but 
without clarity as to definition or scope. This gap can be filled by a 
clear definition of, or vision for, development.
    A good model is the purpose set forth in the statute establishing 
the Millennium Challenge Corporation (MCC) to promote ``economic growth 
and the elimination of extreme poverty and strengthen good governance, 
economic freedom, and investments in people''. Today that objective 
would be updated by inserting ``broad-based'', ``equitable'', or 
``inclusive'' before ``economic growth''.
    The Modernizing Foreign Assistance Network has shared this, and 
other improvements to the development mandate covering accountability, 
evaluation, learning, and transparency, with the committee in specific 
line item suggestions. Especially important is that data be publicly 
available on a project basis, not just by country, and that the data be 
timely, comprehensive, and comparable, consistent with the Foreign Aid 
Accountability and Transparency Act (FAATA).
    A further guarantee of a strong development mandate is that some 
private members of the board have backgrounds, not just in business and 
finance, but relevant development expertise and experience.
                        idfc-usaid relationship
    A strong and productive relationship between the IDFC and USAID 
will be a lynchpin to the U.S. achieving development objectives.
    USAID has been a pioneer in leveraging the private sector in its 
development programs. In the past decade and a half, USAID has 
participated in more than 1,600 public-private-partnerships. Two 
signature initiatives are Power Africa, which works with 142 private 
sector partners (including 69 American companies) to build energy 
capacity in Africa, and Feed the Future, which has leveraged nearly 
$830 million in private sector capital investment since 2011.
    The bill designates the administrator of USAID as the vice-chair of 
the IDFC board and suggests the position of chief development officer 
to coordinate with USAID and the MCC.
    The position of chief development officer should be mandated, not 
permissive. The duties of the office should be enumerated beyond 
``policy and implementation'' to, among other responsibilities: 
coordination of IDFC development policy and technical assistance 
collaboration with USAID and the MCC; sharing of resources, data, 
analyses, and evaluations with USAID and the MCC; oversight of the 
agency's responsibilities for monitoring, evaluation, and transparency; 
and management of the annual report. The officer should be held 
responsible, in the statute or committee report, for leading a learning 
agenda with other agencies and a government-wide development finance 
strategy, both of which will help solidify IDFC-USAID collaboration and 
program integration.
    A mechanism to build collaboration across agencies that has worked 
well among the military services is employee secondments, assigning 
members of one agency to another for periods of one to several years.
    The fact is, productive bureaucratic relationships cannot be 
hardwired through statute. While interagency coordination has improved 
in recent years through initiatives like Power Africa, it ultimately 
comes down to personalities--the right people in the right places. The 
committee can play a role in facilitating the relationship. The 
committee can use its advice and consent to ensure that an appropriate 
person, someone with extensive development experience, preferably with 
USAID, fills the position of chief development officer. It also can 
exercise its oversight role to review how the relationship is 
functioning.
                      development credit authority
    The Development Credit Authority (DCA) is a prime example of the 
critical relationship between the new IDFC and USAID. DCA extends a 
guarantee (typically up to 50 percent) to an entity to catalyze its 
activities so they are more developmental. For example, a DCA guarantee 
can facilitate a financial institution to be more inclusive in its 
lending. The legislation would move this program to the new agency.
    If DCA is transferred to the IDFC, policymakers should consider 
that demand for DCA guarantees comes from USAID missions, so USAID 
country staff are the field operatives for DCA. Further, DCA programs 
sometimes are linked to a USAID program. For example, 10 DCA 
guarantees, supporting $530 million in finance, are involved in Power 
Africa.
    The draft legislation appears to move the DCA program to the IDCA, 
but not any underlying authority. So, with appropriate funding, both 
USAID and the IDFC could operate guarantee programs. It is not 
currently contemplated for the IDFC to have field staff, so USAID 
mission staff would, in essence, have to serve as the field staff for 
guaranty projects of both. Given the difficulty in breaking down agency 
siloes, it is essential that both agencies establish appropriate policy 
and employee inducements to catalyze collaboration.
           the office of private capital and microenterprise
    The bill would move the Office of Private Capital and 
Microenterprise to the IDFC. This is unnecessary and a mistake.
    This relatively small office serves as USAID's center of excellence 
and technical knowledge for private sector activities and 
microenterprise. The centrality of USAID's work with the private sector 
to its programs has already been noted. If the office were moved, USAID 
would simply have to recreate the technical capacity so as to maintain 
the ability to provide advice and guidance to country missions and 
other operating units. In fact, given the importance of USAID/IDFC 
collaboration on projects, and the role that USAID performs in 
advancing business friendly environments, the IDFC needs USAID to have 
the technical expertise provided by this office.
    Furthermore, consider whether microenterprise activities are more 
naturally aligned with poverty alleviation, therefore more akin to 
USAID programs, or to development finance. If the latter, how would 
moving the office impact the USAID microenterprise legislated mandate?
                  labor, environment, and human rights
    The OPIC statute sets out mandates on labor rights, environmental 
impact, and human rights. Today expectations and sound business 
practices are even stronger than when these provisions were written.
    Business leaders have come to understand that these are not just 
cosmetic social concerns, that following them can benefit the bottom 
line. Companies today are adopting comprehensive commitments on 
sustainability, as reflected by some 7,500 companies issuing 
sustainability and responsibility reports consistent with global 
guidelines. As one example, a broad coalition of international 
companies that operate in Cambodia are calling on the government to 
honor the rights of workers to organize and to a minimum wage and to 
cease harassment and criminal charges against union leaders.
    In complying with its legislated mandate in this arena and with 
corporate best practice, OPIC follows the 2012 Performance Standards on 
Environmental and Social Sustainability of the International Finance 
Corporation (IFC). A simple and elegant legislative alternative to the 
multiple provisions in current law and the draft bill is to substitute 
for those provisions the mandate that ``The IDFC shall follow the 
guidelines set forth in the 2012 IFC Performance Standards on 
Environmental and Social Sustainability.''
                     relevance of enterprise funds
    The bill provides the authority to establish enterprise funds by 
reference to certain sections of the original authority to create the 
Polish and Hungarian enterprise funds in the 1991 Support for East 
European Democracy Act (SEED Act). The intent is to transfer the 
responsibility for enterprise funds from USAID to the IDFC.
    The enterprise fund model was innovative in its time, a creative 
response to the opportunity to introduce private enterprise into 
Central and Eastern Europe and the former Soviet Union after the demise 
of the Iron Curtain. Of the resulting 10 enterprise funds, two were 
shuttered early and the others, having completed their original 
mission, have closed their doors and used the income from selling their 
portfolio to repay the U.S. Treasury and to finance legacy development 
functions. Only the Western NIS Fund (in Ukraine and Moldova) retains 
investment activity for a few more years. Two more recent enterprise 
funds are operating in Tunisia and Egypt.
    Several matters to consider:
    The legacy foundations and scholarship funds are grant-type 
activities currently overseen by USAID that would be irrelevant and a 
distraction to the new entity, so the relationship should remain with 
USAID.
    The bill continues the practice of a White House-appointed board 
for enterprise funds. Is this useful? While some board members have 
possessed the expertise to perform well, the primary qualifications of 
others were political connections. What is the value of taking 6-to-9 
months or so for the White House to appoint the board, another 6-to-9 
months or so for the new entity to get up and running, and at best 2-
to-3 years before investing begins?
    In fact, is specific enterprise fund authority necessary or 
relevant? As to necessity, the reason for the original statute was to 
provide authority for USAID to engage in equity investment. The bill 
already does that in the basic authorities.
    As to relevance today, the introduction to a recent USAID 
evaluation\4\ of the enterprise funds suggests the answer:

        ``Despite the enormous challenges of the transition from 
        planned to market economy, the former Soviet bloc countries 
        were very different from today's developing countries in 
        several important ways . . . . These (i.e., Soviet bloc) 
        countries did not have, however, a private sector, and in 
        particular, a diversified private financial sector that could 
        support the financial investments needed to transform the 
        economy into a market-based system. This is the gap that the 
        enterprise funds were designed to help to address. They were a 
        solution to a problem in a very specific context.''

    Today, just a handful of countries lack some private sector and 
financial markets. Furthermore, unlike when the enterprise fund 
authority was first established, if analysis of a country's financial 
markets suggests that equity fund activity is appropriate, why go to 
the time and trouble of creating a new entity? The first step should be 
to pursue a market option, such as contracting with an existing fund, a 
social impact fund, an NGO with experience operating in this arena, or 
issue a request for a proposal. Only if there is insufficient market 
interest should the enterprise fund option be exercised.
    Further, why use scarce grant assistance money when market finance 
is available? Since 1987, OPIC has committed $4.1 billion in 62 private 
equity funds in emerging markets. Those equity funds in turn have 
invested more than $5.6 billion in more than 570 privately owned and 
managed companies in 65 countries.
    Finally, the bill provides authority for the IDFC to establish 
enterprise funds through referencing relevant provisions in the SEED 
Act and adding further provisions.
    There are several legislative options on enterprise fund authority.
    If it is determined that specific authority is relevant to the 
IDFC, then pull the relevant provisions from the SEED Act into this 
bill, thereby creating a clean, clear authority. However, I would 
recommend removing the provision of a White House appointed board, and 
making clear in the committee report that the existing legacy 
operations remain with USAID.
    Alternatively, as in the past enterprise funds have been authorized 
by the Congress, let future Congresses decide whether circumstances 
justify spending grant assistance to establish an enterprise fund.
                                closing
    In closing, I would suggest that the Committee has three balancing 
tasks in finalizing this legislation.

  <bullet> Build a strong development finance agency without 
        diminishing USAID's capability to fulfill its development 
        mission, including on economic growth.

  <bullet> Establish a clear mandate on the primary mission of 
        development while at the same time providing for a nimble 
        development finance agency.

  <bullet> Facilitate collaboration and coordination between USAID and 
        the IDFC without one unnecessarily interfering with the 
        functioning of the other while embracing strong accountability 
        mechanisms that have served both OPIC and USAID well.

    Chairman Corker and Senator Menendez, I thank you for the 
opportunity to submit these views in support of the BUILD Act with 
these workable improvements.

----------------
Notes

    \1\ The views expressed in this statement are solely those of the 
author and do not reflect the views of other staff members, officers, 
or Trustees of the Brookings Institution.
    \2\ Business and Sustainable Development Commission, 2017
    \3\ Congressional Research Service, OPIC, USAID, and Proposed 
Development Finance Reorganization.
    \4\ USAID, Europe and Eurasia Enterprise Fund and Legacy Foundation 
Final Evaluation Report

    The Chairman. Thank you both very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your testimonies. Very worthy.
    Mr. Ingram, I listened to your suggested improvements with 
interest. What are your--I think you have made it pretty clear 
that the merging of OPIC and AID's developing credit authority 
will--how do you think that will affect the overall development 
approach and impact?
    Mr. Ingram. The overall development impact----
    Senator Menendez. Approach and impact.
    Mr. Ingram. I think there is a strong case to be made to 
bring--for the development finance instrument to have all the 
tools of development finance. And guarantee is that. OPIC has 
a--USAID has a history of creating new programs--OPIC, TDA--and 
spinning them off. And I look at the Development Credit 
Authority as that. But, I think that the opportunities and 
the--the potential for business in this arena is so vast that--
I like the way the bill is written now, in that it moves the 
DCA over to the IDFC, the new entity, but it does not take that 
authority away from AID. And, in the end, you could have both 
agencies engaging in different types of guarantee programs.
    Senator Menendez. Now, what are your thoughts on the 
financial tools that are expanded in this legislation? Is there 
a need for Congress to legislate more financial risk mitigation 
transparency in the bill? You did mention the one element of 
having every project publicly listed. Especially as it relates 
to the new proposed equity authority and a reboot of enterprise 
funds.
    Mr. Ingram. The answer is, I think the equity authority is 
very important. All of OPIC's European sisters have the equity 
authority. I sit on a board of an organization that set up an 
equity fund, and it had to go to the European DFIs to get the 
financing. It could not go to OPIC. OPIC only came in at the 
end with debt finance. So, OPIC was not competitive with its 
Europeans. And I think OPIC's existing risk mitigation 
processes will serve the equity just as well as it serves the 
financing today.
    Senator Menendez. Okay. And last question for you. Is OPIC, 
and potentially the new development corporation, working in the 
right countries? What is your opinion to access to markets in 
highly development countries versus the current proposed target 
countries that appear to be more middle-income?
    Mr. Ingram. I think the legislation is correctly written 
today, which it emphasizes, gives priority to poor, developing, 
transitioning countries, but allows OPIC to operate in all 
developing countries. Because I think there will be 
opportunities in more advanced developing countries where it is 
appropriate for OPIC to be active.
    Senator Menendez. And, Mr. Runde, in your testimony, you 
emphasize how this is not our grandparents' development 
financial institution. And I get that. Can you provide 
specifics on how we can update the enterprise fund mechanism? 
In my experience, these funds have largely been signs of 
political support for market reforms in countries coming out of 
conflict, but the development and economic results of these 
funds have been very limited. Can you speak to that?
    Mr. Runde. Yes. I think that the enterprise funds, as they 
were imagined 25 years ago, were ahead of their time, but they 
were very important. There were a number of enterprise funds in 
eastern Europe that were very successful. Poland, for example, 
and others. Actually, they were--when they were set up, did--
that no one imagined that they would return a financial return. 
That was not the idea what they were supposed to do. But, I 
think it is a little bit of a function if we want to make a 
full market return or we want to make specific development 
outcomes as our priority with the enterprise funds. But, I do 
think they are an important complement to what this new DFC can 
do. And in my written testimony, I reference the fact that I 
think that finding new generation of enterprise funds would be 
important.
    I think--several things we might do. I do think it is 
important to have--name somebody as a--an activist board chair. 
I think we should keep that. That was one of the innovations 
and, in many instances, that has been successful. There were a 
few that it was not. And I think we need to learn from our 
mistakes. But then, second, I think that we ought to be able to 
bring in other forms of--other private capital and other 
investors. Originally, as they were envisioned, it was only 
U.S. Government money that could be brought to the table. So, I 
think those would be two things that I would think about. One 
is to keep the--having a board that is brought in from the 
outside. I would keep that. But, I would allow them to raise 
capital from other sources, as well, and bring them in.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thanks, to your--the witnesses for being here today.
    I want to ask about fragile states and combating violent 
extremism, and how a more comprehensive financial tool, 
development strategy, can help us with that. Our Chair had 
David Cameron here a few months back, and he talked about work 
he is doing on fragile states, and the need to invest more in 
them to deal with some of these national security issues. I had 
a briefing 2 days ago about the deaths of American soldiers in 
Niger, which was very troubling. And this is in a part of 
Africa where we have had a lot of requests for more U.S. 
investment and involvement.
    Two years ago, I think, in the NDAA process in the Armed 
Services Committee, AFRICOM came to us, and they asked for the 
ability to transfer monies. If they felt like the best way to 
counter violent extremism was to do development projects, they 
asked for the ability to transfer monies with the SECDEF 
signoff over to USAID and State. So, they also believe the 
power of development in combating violent extremism. The fact 
that they had to ask us, though, suggested that we maybe were 
putting our dollars in the wrong places. And I am very troubled 
about an administration that is proposing significant reduction 
to development funding.
    But, talk a little bit about if we do development right, 
and especially if we attract private investment the right way, 
how that can be beneficial as we try to help fragile states and 
counter violence in those nations.
    Mr. Runde. Thank you very much, Senator. And I want to also 
thank you for all your leadership in the northern triangle. 
Thank you for all you are doing on that important region for 
the United States.
    I think the most important social program is a job. And I 
think, in some ways, some of the most important things we can 
do to make ourselves secure is to have broadbased economic 
growth in some of the world's toughest places. And so, I think 
a new Development Finance Corporation should be willing and 
able to lean in and make investments, not making a full market 
return, but a mixture of investments, technical assistance, 
working with AID to create an enabling environment for jobs so 
that people feel they have got a shot at life where they are 
living.
    And so, I mean, young people are going to use their energy 
in either good ways or bad ways, and we want to channel this 
large youth bulge in places like Africa, where we are going to 
have a doubling or tripling of the population--we have a youth 
bulge in Central America and a youth bulge in the Middle East--
young people are going to use their energies either for good or 
for not so good. And so, I think we want to be using the new 
DFC, in partnership with AID, to try and create the 
opportunities for these young people to live the lives that 
they--that God wanted them to live, and have a--you know, use 
their God-given talents in ways that make sense.
    So, I think it is very, very important. We have--I--when I 
talk to military officers--General Kelly, I think, really 
understands this in the administration, so I think there is a--
I think Mark Green, Ambassador Green, really understands this--
so I think you have folks in the White House, you have folks in 
the development side of the House and in the military who 
understand this. So, I think, in partnering with the Senate and 
with the Congress, I think we could find our way to do yet more 
in fragile states along those lines.
    Senator Kaine. Can I ask you this? Since you are not 
currently part of the administration, so you do not have to 
give us a party line, how do you square that, that there are 
people who seem to understand that, with these budgets that 
come over to us that suggest we want to cut these priorities? 
Is it just a----
    Mr. Runde. Well, thanks.
    Senator Kaine. --just a----
    Mr. Runde. Yeah, I was in the----
    Senator Kaine. --big tug-of-war between the people who know 
stuff and those who do not? Or----
    Mr. Runde. I am a Republican.
    Senator Kaine. Yeah.
    Mr. Runde. I was in the Bush administration.
    Senator Kaine. Yeah.
    Mr. Runde. But, I would say half of my job at CSS right now 
is trying to stop stupid things from happening. And I think 
cutting the budget by 30 percent is a bad idea. I think it is a 
mistake. And I think that the Congress, in its wisdom, has had 
a different view. And so, I think--but, I think there is plenty 
of smart folks, and I think they are just--we are having to 
balance a number of different positions in--in any 
administration, there is different viewpoints. And so, I think 
the Congress has an important role to help have a dialogue with 
the administration. I think there are many reasonable folks.
    I also think--the other thing I would say is, as the 
administration has come online, they have had conversions, sort 
of ``Road to Damascus'' conversions on a number of different 
issues. If you just look at this conversation that we are 
having, the first budget that they put out said, ``We are going 
to zero out OPIC.'' That was a terribly stupid idea. And I 
wrote an article, said, ``We should not be eliminating OPIC, we 
should be putting it on steroids,'' among many of the other 
things I will be submitting for the record. And so, I am 
pleased to see that they are putting it on steroids.
    So, I think some of it is about having a dialogue with 
Senators here, and staff, to say, ``Let us not do stupid 
things.'' And I also think, to make sure that we understand our 
security interests and that this is enlightened self-interest. 
And the administration, over time, has under--has seen that. 
And actually, I think the National Security Strategy they put 
out was an excellent National Security Strategy. So, I give--we 
need to work with them and partner with them and have a 
dialogue.
    Senator Kaine. Mr. Chair, could I have Mr. Ingram--if you 
have additional thoughts, Mr. Ingram, on this national security 
interlink with appropriate development, including private 
development--if I could have him--extend my time?
    The Chairman. I am glad to have it. I have enjoyed this.
    [Laughter.]
    Mr. Ingram. Thank you, Senator Kaine.
    I was going to start just the way Dan started: jobs, jobs, 
jobs. And what I would add is: A couple of years ago, I looked 
at USAID's 1600 public-private partnerships that it had 
supported over the prior decade and a half. And, at the end of 
all this, I said, ``I wonder if any of them are in fragile 
states.'' And what I found was that a quarter of them were in 
fragile states. My skeptical colleagues said, ``Well, it is all 
in natural resource extraction.'' I looked at that. It was not. 
It was in home products. It was in technology.
    And to go to Senator--to skip from here to Senator 
Menendez's point on the U.S. nexus, you have made the point for 
why we need to soften the U.S. nexus. Because, in some of those 
fragile countries, there will not always be an American company 
there that you--that offers the opportunity to create the jobs, 
to promote the development. And OPIC's European sisters do not 
have a national nexus. And just as Senator Corker, the 
Chairman, is trying to provide more flexibility in U.S. food-
aid programs, from always having to buy U.S. products, and all 
development agencies have moved away from ``buy national,'' we 
need to do that in the development finance area. And I think 
this legislation does it in a very smart way of saying there is 
a preference for U.S. companies, but it does not always have to 
be a U.S. Company.
    Mr. Runde. May I? Let me just add to what George has just 
said. On this issue of preference, I think it is very, very 
important. I think we should always prefer to work with an 
American company. And I think we might even have some 
limitations as to how much ought to be non-American. But, there 
are going to be instances--if we are going to go down-market, 
we are going to go to the toughest places in the world--Niger 
or the Sahel, or we are going to go Afghanistan--most American 
companies are not going to go there, or they are going to 
have--we are--or they are--we are going to have to prove to 
them that there are opportunities. And sometimes it is going to 
be working with a local company or it is going to be working 
with a European company or a South African company. So, I think 
there are going to be instances where this new DFC needs the 
ability to do that in these toughest places. We want to go to 
the poorest places. We need to give them a little bit more 
flexibility.
    Senator Kaine. Thank you, Mr. Chair.
    The Chairman. Mr. Runde, we were--Senator Menendez and I 
were commenting at--obviously, you are not lobbying for a job 
within the administration.
    [Laughter.]
    The Chairman. And so----
    Mr. Runde. I am working on my subtlety and nuance, Senator.
    [Laughter.]
    The Chairman. Well, you are providing a lot of 
entertainment, and we appreciate it.
    [Laughter.]
    Senator Menendez. But, we think it is extraordinarily 
refreshing, Mr. Chairman.
    The Chairman. So, you have had some concerns about the 
development budgets in the past, in just foreign aid budgets. 
It would appear to me that those initial budgets coming in were 
possibly an attempt to show that you were trying to cut 
government spending because you were unwilling to deal with the 
entitlement piece. And yet, if you look at what we have 
actually done, we have not cut those budgets, have we? And so, 
I think there has been an evolution here, and I know that, 
while many--some of the members here have been critical of the 
administration in that regard, it does seem as if this is a 
very enlightened approach. Is it?
    Mr. Runde. Senator, I think that the administration is 
willing to have a dialogue and to have a conversation about 
these issues. And I think it has been learning on the job in a 
constructive way, if I can say that. And so, I think this is an 
example--this topic is an example of that. And so, I do not 
think we can balance the American national budget on the back 
of the 150 account, which is the account for----
    The Chairman. Right.
    Mr. Runde. --foreign assistance. It is too teeny. And it is 
a part--we need it. And if we talk to our military leaders and 
our diplomats, they say we need it.
    The Chairman. Yeah.
    Mr. Runde. We cannot just use foreign aid, alone. I pay my 
mortgage. I am paying, you know, on about--typical foreign 
assistance--we need foreign assistance, and it is an important 
part, but we need this additional set of tools, because the 
world has changed. And so, I think the administration 
understands that, and I am so pleased that the two of you 
gentlemen are convening this meeting today to have this 
conversation.
    The Chairman. And so, as we look at this--but, you know, I 
know there is always skepticism. I understand the world we live 
in. If the administration happens to support something, then--
in this environment, it can create some skepticism. Let us be 
honest. But, what you would say, as someone who apparently has 
had concerns with the administration in some of the things that 
may have been put forth, this is something that you think is a 
huge step forward for our Nation, has nothing to do with 
partisan politics. This is actually something we should have 
done years ago.
    Mr. Runde. I think this is one of the things--keeps me in 
the business. This legislation keeps me in the business. I 
think the bipartisan nature of this--this is about the changed 
world. If you care about international development, you care 
about poor people, if you look at the Addis Ababa Financing for 
Development Conference of 2015--if you have trouble sleeping at 
night, you can read the communique of the Addis Ababa--but, 
truly, what it said is that foreign assistance is a catalyst, 
that we need to bring in other--we need to move from billions 
to trillions. We are going to need to finance $1.7 trillion a 
year of infrastructure in Asia every year. We are not--there is 
not enough foreign aid in the world. We still need foreign aid. 
And we need AID. But, we need this new DFC and AID to work 
together.
    And so, I know that we are in a particularly partisan 
moment, but I would just, respectfully, for the record, say 
that this has been a truly bipartisan exercise. I have been so 
encouraged by the work of you, Senator Corker, and Senator 
Coons and their staffs. People have worked tirelessly across 
the political spectrum on this. I have been particularly 
gratified by the way the Trump administration--the Trump 
administration staff has been great on this.
    And so, I know there is distrust and there is tension. But, 
I just way to say, this has been a very important bill, and I 
think the current version that you have in front of your 
committee is an excellent bill. And I--you know, I have worked 
on these issues for 7 years full time. Like I said, if you have 
trouble sleeping at night, I have written several papers on 
this topic, as well, myself. So----
    The Chairman. I think your oral presentations are probably 
more enlivened. But----
    [Laughter.]
    Mr. Runde. Yeah. So----
    The Chairman. Mr.----
    Mr. Runde. --less soporific. But, yes.
    The Chairman. Mr. Ingram.
    Mr. Runde. But, look--anyways, I will stop there.
    The Chairman. Okay.
    Mr. Ingram, what is your view of the administration 
evolving to a place where this type of legislation would be 
supported?
    Mr. Ingram. The answer is, I am very pleased to the--see 
the administration change its position and recognize the 
importance of development finance. I think we--as Dan says, 
grant assistance is very important in promoting development, 
but it is--in this day, it is in a static stage at a time when 
private finance is growing. And the U.S. needs a stronger tool 
to be able to engage that private finance with those companies, 
and to help edge them into activities that have a stronger 
development impact.
    The Chairman. Do you have any other----
    Senator Menendez. Yeah, just a comment, Mr. Chairman, since 
we are having fun.
    So, first of all, let me say that, with all the remarks 
about partisanship, I am proud that the--this committee 
overwhelmingly, for the most part, works in a very bipartisan 
manner. Some of us have very deeply held views about 
development assistance in the world, and how it promotes it. 
So, we are just trying to reconcile that with a new paradigm. 
And I do not think that should be seen as partisan.
    As it relates to the administration's budgets and their 
attempts to cut, I just find it interesting that some of us 
consider a $2 trillion tax bill, unpaid for, largely focused on 
corporations as an entitlement, as well. So, it is just--I 
guess, depends how you look at the world.
    So, thank you, Mr. Chairman, for that opportunity.
    The Chairman. Would you guys like to----
    [Laughter.]
    Mr. Ingram. I would not disagree with Senator Menendez. I 
would not disagree with him at all.
    Mr. Runde. I am generally very talkative, but I have 
nothing to add.
    [Laughter.]
    The Chairman. Do you have any other comments?
    Listen, thank you both very much for being here. you are 
both former USAID employees and leaders. My guess is, you come 
from different sides of the aisle.
    Mr. Ingram. We do.
    The Chairman. And it appears to me that both of you, with 
some changes, I know, strongly, strongly endorse this ability--
the ability that this bill provides to help us really move into 
the 21st century as it relates to helping people in poverty not 
be in poverty. Is that correct?
    Mr. Ingram. That is correct.
    Mr. Runde. Yes, sir.
    Mr. Ingram. And the other thing I would say, Senator 
Corker, it is particularly--I love seeing this bipartisanship, 
because I cut my teeth on the first OPIC reauthorization as a 
House staffer in 1974, and the Democrats were attacking OPIC. 
Five years later, when the next reauthorization came up, the 
Republicans attacked it. And it is really very gratifying to 
see both parties coming together now and understanding the 
importance of its activities in the world.
    Mr. Runde. Let me just add, Senators, that I think, if 
this--once this bill gets passed--and I hope it does get 
passed--that I think it could create an icebreaker for other 
projects that need to be done. And so, I think this coalition--
I think it is going to create momentum, I think, for other 
things that we need to tackle in this sphere.
    The Chairman. Well, thank you both.
    The record will remain open for written questions through 
the close of business on Monday. If you could--I know you have 
other jobs, but, to the extent you could answer those fairly 
promptly, we would appreciate it.
    We thank you both for your service to our country.
    And, with that, the meeting is adjourned.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]
    
                              ----------                            


              Additional Material Submitted for the Record


             Statements by Habitat for Humanity and Holtec 
                     Submitted by Senator Menendez
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               __________

  Letter From the Hon. Elizabeth L. Littlefield to the Senate Foreign 
             Relations Committee Submitted by Senator Coons
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               __________

                           S. 2463 BUILD ACT

    [This document can be found online at: https://www.congress.gov/
115/bills/s2463/BILLS-115s2463is.pdf .]

                                  [all]
</pre></body></html>
